  EFFECTIVE PRACTICES IN ENFORCING

      CHILD CARE REGULATION





                 Richard P. Kusrow
                 INSPECTOR GENERAL




OEI.Q3-89-Q701                       FEBRUARY 1990

                                                                 ........ .... .... .... ..........
                                                                      .....................         .... .... ...... ... ...
                                                                                               .......................       .....
                                                                                                                          .... .......




                                                  TABLE OF CONTNTS



I NTRO DU CTIO 
          N .... .... ..... ........ .... ....                                                                    ... ..... .... ... .... 1




CATALOG OF SELECTED EFFECTIVE PRACTICES ................................                                                                                  3


                   LEGAL SANCTIONS AND                            PROCEDURES..................................... 3
                   INSPECTION REVIEW TECHNIQUES ..........................................                                                              4
                   MONETARY INCENTIVES AND PENALTIES...................................                                                                   6


                   PAR ENTAL I NV OL V EME NT                                                                                            ......... ...... 7

                   TRAINING AND TECHNICAL ASSISTANCE FOR PROVIDERS ..........                                                                             9



APPENDIX

                   CONTACTS FOR SELECTED EFFECTIVE PRACTICES ....................

                                      INTRODUCTION



PURPOSE
The purse of this report is to cataog effective pratices encountered durng our review of
States ' enforcement of child car regulations. Findings on State regulatory enforcement ef­
fort ar contaned in a separte report entitled ' 'Enforcing Chid Ca Regulations,
OEI- 03- 89- 00700.


BACKGROUND

States have the priar responsibilty for establishing and enforcing stadads and regulations
reg      g child car. The Offce of Human Development Servces supports cbild car thugh
the Social Services Block Grat (title XX. The Famly Support Act of 1988 funds child car
for Aid to Fames with Dependent Chdrn (AFC) beneficiares who tae par in the Job
Opportnities and Basic Skils (JOBS)     progr   Under both Federa progrs, parcipatig
providers must meet applicable State stadads.

Ther ar thee major kids of chid car settgs in the Unite States. Accordig to the U.
Census Burau, 41 percent of preschool childrn of workg mothers spend their days in the
homes of others. This is known as famy chid car. Although 48 States regulate famy chid
car, 19   States derme it in such a way that lare   numbers of   homes are not covered.

Twenty-one percent of chidrn under age 5 ar in organize child car centers or preschools.
Al States regulate child car centers and only tWo do not inspt centers annually.

The thir tye of arangement,   for 30 peent of those under age 5, is supervision in the
chid' s own home by a nanny, sitter, frend or relative. Ths      ty
                                                                  of care is not regulated in
any State. The remaing 8 percent ar       car for in other settngs.



 METHODOLOGY

 We inteewed      child car licensing offcial and inspetors in all 50 States, the Distrct of Co­
 lumbia and New York City. In nine States and New Yor City, these intervews were con­
 ducte in person. Although we spoke with a varety of other persons, this report is based
 priary on conversations with State licensing adistrtors and inspectors. These respon­
 dents were asked to identify practices they had found to be most effective in enforcing their
 child car regulations.
Categories Of Effective Practices
This report is a catalog of selected enforcement pratices. We found a wealth of new ideas
and protocols in child care regulation enforcement among State and local agenci s. A sam­
pling of these practices is presente in the followig categories:

             Legal sanctions and proedurs

                   Administrative closures


                   Consent agreements
                   Investigative protocols

             Inspection review tehniques

                   Indicator checklists


                   Use of interviews
                   Inspector training

             Moneta incentives and penalties

                   Financial incentves to encourage provider registration
                   Fines as enforcement    procedues

             Parntal involvement



                   Communicatin between States an parents
                   Communicatin between providrs and parents

             Tranig and technical assistace for providers


                   State agency practices
                   Cooperative efforts with unversities



More informtion on these practices can be obtaned frm contacts listed in the appendi.
                CATALOG OF SELECTED EFFECTIVE PRACTICES


LEGAL SANCTIONS AND PROCEDURES

To protet the health and safety of chidrn, it is someties necessar to close       a facilty. In
most States,   th is a lengthy, tie-consuming proess. Sta unamliarty with judicial proe­
dur and a lack of legal counsel cause some of the delays.        Lite
                                                              State legal authorities, due
process proedurs and contiuig appeals also can alow a faclity to reman open even when
chidrn s safety is thatened

Severa State licensing agencies have found adnistrtive closurs to be an effective enforce­
ment mechansm. Although State authorties var,         the basic   concept permts immedte clo­
sur of a facilty due to serious safety or chid    abuse   citations.

Oter effective State proedurs include consent agrments and investigative protocols. Con­
sent agrments reuir that the State agency and the prvider establish a legaly binding
agrment for the continued operation of the facty if it is repeatedy out of compliance. In­
vestigative protocols trai inspectors to develop paper      tr
                                                         to avoid legal problems when
proseutig. Ths is effective when legal counsel is separte frm the licensing agency sta.


Administratve Closures


Four State adnistrtors cited their authority to close a facilty when childrn ar in imminent
dager. State offcials in llinois and Nebraka report their adstrative closur proto­
cols have ben effective.

The Dlinois power of adistrtive closur forbids chid car providers frm operating dur­
ing the appeals process. The State must intiate enforcment action within 10 days of the cita­
tion , but the facilty may not operate in the interim. Thoughout the process, the State agency
isreui       to assist the provider in complying with reguations.

In Nebraka, when there is imnent dager to the health or safety of childrn in a facilty,
the State agency may order an immedate adnistrtive closur. The facilty remains closed
durg the 10-day appeal period Nebraka and sever other States indicated that at this point
many providers choose to give up their licenses voluntay.

Consent Agreements
State offcials say "   any legal action tends to get a prvider s attntion " and prouce either cor­
retive action or volunta closure. For example, the Connecticut State agency for center li­
censing has the authority to negotiate a consent agrmen which center providers must sign to
keep their facilty open while they corrt     deficiencies. In the event of furher noncompliance
or refusal to sign the agrment, a center s license can be sumarly suspended until the ap­
peals press has ben exhauste

Investigatve Protocols
Our intervews revealed that State offcials feel that providers avoid prosecution by using legal
loopholes. However, we found that most inspetors have educational backgrunds in social
work rather than investigations. They ar seldom tred by the State to collect evidence and
obta witnesses.
Toadss ths, New Hampshire has established a comprehensive investigative protocol
with the State agency. Inspctors ar tred to tae offcialy witnessed and signed state­
ments when there is probable cause for litigation. Citations ar   sent   to uncensed providers
via cered ma with copies to the State Attorey Genera.


INSPECTION REVIEW TECHNIQUES

On- site visits ar the most common enforment tehnique. Deisions to issue, renew or deny
licenses ar bas oil these visits. However, most visits ar shor and        inuent.
                                                                            Severa
States have develope inovative tehnques to help insptors mae the most of these viits.

A number of State agencies use indicator checklsts or conduct less extensive inspetions if
there has ben past consistent compliance. These States ar able to devote more enforcement
resours to deficient facilties. Other States use inteews with chidrn , parnts and provid­
er.
Inspor   trg      thugh semiar, vides,
and consistency of insptions. At
                                             and handboks improves both the effectiveness
                                    least tWo States ditrbute   a licensing handbok for inspec­
to. These   handboks serve as a quick acurte reference in the field.

Indiatr Checklists
Indicator checklsts ar   used in severaStates to inspet centers which ar consistently in com­
pliance. These checklists include items such as sta to child ratio, group size, and physical
condition of the facilty. Both Pennsylvania and Wiscnsin use indicator checklsts for moni­
torig. Their systems help   dit  inspetion resours to the facilties most in nee

In Pennsylvania, the 15 checklist items have proven to be effective quality of car indicators.
Pennsylvania adnisters the ful-scale inspetion instrment        once every 3 year   even if there
ar no problems indicated by the checklist.
Wiscnsin conducts a more in-dpth inspetion if there ar               problems in one   of the indicator
categories or if other factors suggest it is necessar. Insptors in Wisconsin report that this
method alows them to focus their energies more effciently.

Prioriting Inspections Based On Previus Perfonnance


In most States, providers with a history of consistent regulatory compliance face the same de­
taed inspetion as a facilty with a por compliance reord However, Tennes has an in­
centive approach to inspections. Providers who            mata
                                                           consistent regulatory compliance
rewar with abbreviated inspetions. The proess allows inspection resources to be focused
on problem providers.

Use of Intervews
Although in-person observations and measurments ar the most common inspection tech­
niqqes, severa States are broadening their procedurs with more subjective creria. In New
Hampshire, inspectors intervew childrn at a facilty as par of their inspetion or complait
investigation. Unless parnts prohibit an intervew, childrn ar questioned about nutrtion
disciplie, and other topics. New Hampshir inspetors also attempt to speak with parnts if
ther ar concerns about a facilty or if it is under investigation.


In Washigton County, Minnesta, the licensing agency has developed a questionnai to as­
sess home qualty. This is              adstere
                                        as a separte insption interview so that the provider
is comfortble answering personal questions. The questions center on child rearng atttudes
and persnal famy experiences. By rasing such issues, inspetors probe for individual moti­
vations while gaiing insight about a provider s qualcations.

Inspector Training
Across the nation, insptors             wanted   mo tring and assistace in their decision makg.        A
varety of approaches were              uncovere In Minnesta, the Assoiation of Famly Child Car
Licensors has developed a 
          Child Care Licensing Resoure Handook.        Ths handbok helps
                              improve the quality of their monitoring of providers. The handbok is a
trg manual wrtten by inspectors for
isolate inspectors
                                                    inspeto which allows them to be as consistent as
possible Statewide.

The State agency sta      taken the lead in New Jersey and has crated a
                                 has                                     Techncal Assis­
taeJlandookfor Child Care Centers        as a companion document to the State licensing man­
ual. The guide follows the formt of the licensing maual, offering inspectors ways to assist
prviders in complying with regulations. It contas sample fons for prvider reordkeep­
ing, explais the reasoning for certn regulations and offers answers to common questions.
New Jersey inspectors feel this reference soure helps them give quick comprehensive infor­
mation to providers.
  Michigan    qutas    libra of       vide tapes for insptor trng which includes information
  on intervewig, documentation and safety measurs. Vides ar also avaiable on more gen-
  er topics such as communication skis, maagement and self- development. Michigan also
  offers trtional   classrom   trg on topics such as COuroom crbilty.
  MONETARY INCENTIVES AND PENALTIES

  FINANCIAL INCENTIVES TO ENCOURAGE PROVIDER REGISTRATION
  Some States provide fiancial   incentives to aid   in the
 regitere providers. These incentives help reuce thereitment   and         retention of licensed or
                                                     tie inspctors         spend investigatig un-
 license car and    conductig initial licensing prours.

       most common fiancial    incentive   use by States is the U. S. Deparnt      of Agrcultu
 Chid Car Foo       Prgr   In most States, metig
 lows prviders to be reimbured for the cost of
                                                        registrtion or licensing
                                                                                   reuiments al­
                                                     prvidig meal to chidrn    in their car.
 Liensing Reward
 May States charge chid    car  providers an anual fee. New Hampshire is unusual
 has no State licensing fee. In one                                                in that it
                                    of New Hapshi's regions, a contrt was awarde to
 outside agency to  reit   providers. The agency     grte$200 "rewars " to providers after
 they held a license for 6 months to help defer
 cense providers ar
                                              adstrtive and local licensing costs. Li­
                      also liste in the   compute State Resoure and Referr network.
Training Grant
In   orr to incrase the supply of registe provide, Pennsylvania'
Welfar reimburs up to $175 for approved trnig to registere s Deparent of Public
About 60 famy providers applied for and reeived
                                                          famy chid car providers.
                                                tring thugh ths progr in fical
year 1989.



FINES AS ENFORCEMENT PROCEDURES
Fines ar an intermedate sanction which
                                        permt insptors to tae lited punitive measures
against providers found to be out of compliance. Twenty-
                                                         four States have authorized fines,
but may raely use them due to complex restrctions.

May licensing adistrators in States without fining authorty mentioned rmes as the
forcement option they would most want      ad                                      en­
                                          to their regulations. Admnistrtors frm both
California and Florida reported their
ance amng providers.
                                          fig prours ar effective in motivating compli­
Civil Penaties
California uses a civi penalty process    which allows inspetors to issue daly rmes of $25 to
$50 agaist licensed centers or unlcense     famy homes. Fines are issued only after a center
fais to meet a corrective action plan.   Caornia has strngtened enforcement of civil penal­
ties with  adstrtive     procedurs to ensur payment. The State wi not renew a chid car li­
cense if there is an outstading fine. In accordce with the State ta offset progr, an
unpaid fie can also be deducte from the provider s State income ta refund.

Administratve Fines
Florida has   use an adistrtive rme proess for licensed chid       car centers since 1985.
Fourn out of 67 counties have home rue        jursdction and conduct   their own county inspec­
tions. Al counties must met or excee State stada and can use State enforcement proce­
durs.

There ar   thee  classifcations of day fines. Oass One offenses involve umnent aager or
lie thtenig      accidents with rmes up to $100 pe violation. Class Two involves more seri­
ous but not lie thatening violations, with fies of $30 to $75. Class    Th offenses involve
less serious violations, with fines of $10 to $30.

When a violation is cited durg a site inspetion, the provider is given a corrctive action due
date. An adstrative fine can be issued by the licensing agency only if the corrtive action
due date is not met.


PARENTAL INVOLVEMENT

Parnts can assist inspectors by actig as "eyes and ea " for child car regulation enforce­
ment. Their parcipation is considere vita to assurg qualty car. However, may respon­
dents report that most parents may not know what to look for in assessing their chid' s car
facilty. Some suggestions for incrasing parnt awarness include workshops, education
thugh the meda, and parcipation in facilty activities.

There ar may ways parnts can beome more involved with their child' s car facilty even if
they have litte   ti.   Parnt involvement can include persnal visits, parcipation on the
facilty s advisory board, conferences with sta and review of educational material. State ad­
miistrtors and inspectors believe that madating a rage of opportnities for parnts to be in­
volved in their child' s care is a goo way to be sur facilties comply with other regulations.

Communicaton between State and Parnt
Most State agencies hear from parnts only when they have a complaint. New Hampshire
taes a more   active approach, sureying parnts as par of their inspection of facilties.
State licensing adnistrator report that although parnts ar hesitat to initiate contact with
State agencies, when asked to make comments in an anonymous surey they " come out of the
woowork.

In Indiana, the State licensing agency has developed a series of inormative materials on child
car for parnts. Although the agency does not mae reommendations regardig specific pro­
viders, the State does suggest to parnts that they examne provider fies. These fies conta
al complaits fied about the facilty. Only Child Prtective Servce complaints ar protected
by confdentialty stadads.

Communicaton Between Provir and Parent
To assur better communcation betWeen parnts and their providers, more and more States
ar developing specifc parnta involvement regulations. In Delaware, regulations guartee
parnta access anytie their child is in the facilty. Parnts
                                                        must reeive a wrtten statement
of the faciltys policies and proedurs and must be inormd of their child' s progrss. Dela­
war also  reuis    ongoing communication betWeen providers and parnts, inCluding a mii­
mum of one conference anualy. Parnts ar encourged to review licensing reuirments
and conduct a pre-enrllent interview with the provider.

Iowa madates a special parnta role in some child car centers. At least hal of the seats on
advisory boards of non- profit centers with more than 40 chidrn must be parnts of enrlled
chidrn.

To encourge planed communications with parnts,                            centers reuir a
                                                    Dlinois regulations for
wrtten reord of "parnta dialogue to ensur that (the center s) progr haronizes with the
home. " The progr must reflect respet for the famly cultu or backgrund. Visits and
parcipation must be encourged and concerns about a child' s health, development and behav­
ior must be communicate promptly to parnts and day to an infant s parnts. Both centers
and famly homes must have proof that parnts have reeived facty policies and procedurs
and wrttn inormtion distrbuted by the State.

Tennes homes and centers must provide parnts with a copy of State licensing reuire­
ments. Tennesse encourges communication betWeen parnts and providers and requirs un­
restrcte parnta access. Centers must also prvide parnts with instrctions on detecting
and prventing child abuse.

Pr-enrllment visits and parnt orientations ar reuir in Vermnt' s licensed centers.
These providers must hold tWo fonn conferences a year and meet with parnts who reuest
adtional conferences. Regitered famy child car providers must distrbute the State s regu'"
lations for famly homes and a parent handbook which includes a complaint form and a letter
of praise for. Family homes must also display a joural contaning their certfication, poli­
cies, regulations for famly child car and guidelines for the protection and car of childrn.
TRAINING AND TECHNICAL ASSISTANCE FOR PROVIDERS

STATE AGENCY PRACTICES
State adstrators and inspectors in 19 States identified provider trning as importt to in­
crasing compliance with regulations. Educated providers elevate the stada of car and
alow better use of enforcement resources. Most offcials view provider tring and tehnical
assistace as a preventive enforcement   pratice.


Nearly 80 percent of al States offer some form of  trg  or tehnical assistace. Eighty-six
                                                                           nee
percent of providers reported that they tued to insptor fit when
                                                                   they          assistace.
However, may offcials believe that these effort do not always meet their full potential as
positive enforcement measurs due to insption sta shortges.

Suu Training Committe
A Chid Ca Traing Commttee with members appointe by the Governor has ben estab­
lished in Arkansa. The commttee includes providers, State offcials, a parnt, and an early
chidhoo education professional. Ths commtt develops a tring program for providers
based on proposals for trg      projects it reeives each year. The commtte alo purhases
and lends out materials for providers to trn their own sta. (See also: Cooperative Efforts
With Universities.

Training Seminars
Pennsylvania has develope a regional trning semina for famy child car providers. The
semiar is led by State sta but is volurta for providers. Ths 6-hour session covers regula­
tions, cargiver policies and techniques and a question/answer period At the conclusion, pro
vide reeive a resoure maual and other materials. Prvider evaluation of the tring has
ben very positive. Initial sureys indicate that there is grater compliance with reguations
among the semiar    parcipants than other providers. Pennsylvania inspectors   hope to be con­
ductig the   seminar as a Statewide demonstrtion progr in the near future.


Avoidig alegations of child abuse has beome of incrasing concern to providers. In Ver­
mont, presentations ar held bas on their publication,     Protecting Your Business from Allega-

tions of Child Abuse. 
 The session teaches how to recognize and report child abuse. It profies
offenders and the ways they gain access to childrn. The presentations mae providers awar
of preventive measurs they can tae to safeguar childrn in their car. The intent is to teach
providers how to protect their professional interests while encouraging them to be affectionate.
cargivers.
COOPERATIVE EFFORTS WITH UNIVERSITIES
Severa States have developed close workng relationships with university program for early
chidhoo education. These unversity based progr offer valuable trning opportnities to
both providers and enforcement sta. Their independent perspective is valued by providers
and State adnistrtors ale.

Model Currculum
In respnse to provider reuests, the New York Burau of              Chd Cae, workng with Cornell
University, developed a 
           l curculum for preventig child        abuse entitled,   Managing.
Children s Behaior.         It contans a series of pratical,   proven   discplie techniques.

Th   trg      progr teaches positive disciplinar tehniques
lig chidrn s behavior problems.                     tred inspctors
                                          Semiars led by
                                                                         which ar effective in control-
                                                                                ar now held though-
out the State for center and home-based providers. The State report it is their         most popular
trg progr.
Training Center
Under the auspices of the Nort Dakota State University (NSU), North Dakota has estab­
lished an Ealy Chidhoo Traing Center (ECTC). The center has a trning librar for pro
viders which lends video        trg
                                 tapes and other materials though county social servces
agencies.

The NDSU is a member of the State advisory boar for oversing regulation and enforce­
ment policy. In adtion, ECTC coordiates             trg
                                                  among dierent groups such as the Day
Ca Prviders Assoiation and the Assoction for the Education of Young Childrn. Separ­
tion of the
censing
                trg
                  compnent from the licensing agency prevents confsion of mium li­
              stada
                 with effort to crate quality progrs in the field of early childhoo
seces.
Resource Center
The Arkansa Chd Ca Traing Commtt co-sponsors a Child Ca Resource Center
with the University of Arsas and Arsas Childrn s Hospita. The Center is housed in
space donated by the University and contans a libra of child car trning materials. Allli­
cense famly homes and centers receive a User Car which enables them to borrw any mate­
ris they nee from the center. Beginning in Januar 199, the Center will also serve as a
 resoure and referr netWork.

STATE AGENCY PRACTICES
State   adstrtors and inspectors in 19 States identied provider trning as importt to in­
crasing complice with reguations.     Educated proViders elevate the      stada of car    and
allow bettr use of enforcement resoures.    Most offcials view provider trning     and   technical
assistace as a preventive enforcement practice.

Nearly 80 percent of al States offer some form of trnig or        tehnical assistace. Eighty-six

percent of providers reported that they tued to inspetors fist when they
                                                                              nee assistance.
However, may offcial believe that these effort do not always meet their fun potenti         as
positive enforcement measures due to insption sta shorges.

Sta Training Committee
A Chid      Ca Traing Commttee with members appointe by the Governor has ben estab­
lished in Arkansa. The commttee includes providers, State offcials, a parnt, and an early
chidhoo education professional. Ths commtt develops a              trng
                                                                   program for providers
bas on prposals for trnig projects it reives each   year. The commtte      also purhases
                                       tr
and lends out materials for providers to their own sta. (See also: Coperative Efforts
With Universities.

Trainig Seminars


Pennsylvania has developed a regional tring seminar for famly child car providers. The
semiaris led by State staf but is volunta for prviders. This 6-hour session covers regula­
tions, cargiver policies and techniques and a question/answer period At the conclusion , pro
viders reeive a resource manual and other materials. Prvider evaluation of the trning has
ben ver positive. Initial sureys indicate that there is grater compliance with regulations
among the semiar parcipants than other prvide. Pennsylvana inspetors hope to be con­
ductig the seminar as a Statewide demonstrtion             prgr
                                                           in the near futu.

Avoidig alegations of child abuse has beome of incrasing concern to providers. In Ver­
mont, presentations ar held based on  their publication,  Protecting Your Business from Allega-
                     The session teaches how to reogn and report child abuse. It profies
tions of Child Abuse. 


offende and the ways they gain access to childrn. The prsentations make providers aware
of preventive measurs they can tae to safeguar childrn in their car. The intent is to teach
providers how to protect their professional interests while encourging them to be afectionate
cargivers.

 COOPERATIVE EFFORTS WITH UNIVERSITIES
 Sever States have developed close workng relationships with university        progr
                                                                                for early
 chidhoo education. These university bas         prgroffer valuable trning opportunities to
 both prviders and enforcement sta. Their independent perspetive is valued by providers
 and State adnistrtors alike.
. .' -:.




           Model Currulum
                                                                                                with Cornell
           In response to provider requests, the New York Burau of Chld Ca, workng
           University, developed a model cwrculum for preventing child abuse entitled          Managing
           Children s Behaior.   It contans a series of prtical, proven       discipline tehniques.


           Ths tring     progr teaches positive discipliar tehnques which ar effective in control-
           lig chidrn s behavior problems. Semiar led by tred                 now held though-
                                                                             insptors ar
           out the State for center and home-based       prviders.   The State reports it is their most popular
           trg progr.
           Training Center
           Under the auspices of the Nort     State University (NSU), North Dakota has estab­
                                                Dakota
           lished an Ealy Childhoo Traig Center (ECfC). The center
                                                                    has a tring librar for pro
           viders which lends video   trng
                                       tapes and other materials thugh county social servces
           agencies.

           The NDSU is a member of the State adviso boar for oversing regulation and enforce­
           ment policy. In adtion, ECfC coordates            trg
                                                             among dierent grups such as the Day
           Ca Prviders Association and the Association for the Education ofconfsion
                                                                             Young Chidrn. Separ­
           tion of the tring component from the licensing agency prevents             of miimum li­
           censing stadas with effort to crate qualty          prgr
                                                                in the field of early childhoo
           seces.
           Resource Center
            The Arkansa Chid Ca Trag Commtt co-sponso a Child Ca Resource Center
            with the University of Aransas and Arsa Childrn s Hospita The Center is house in
            spac donate by the University and contans a
                                                                libra of chid    car tring materis. Allli­
            cense famy homes and centers reeive a User           Ca which enables them to borrw any mate­
            ris they   nee from the   center.   Beginig in Januar 199, the Cente will also serve as a
            resoure and referr netWork.

                              APPENDIX


        CONTACTS FOR SELECTED EFFECTIVE PRACTICES


ARKASAS - Traning and tehnical assistace
Ms. Kathy Stegal
Slot 720
Deparent of Huma Servces
  O. Box 1437
Litte Rock, AR 72201
(501) 682- 8590

CALIFORNI - Fines
Mr. David Smith
Community Cae Licensing Diviion
Cafornia Deparent of Social Servces
1315 5th Strt
Sacento, CA 95814
(916) 324-324

CONNCTICUT - Legal sanctions and proedurs
Mr. Wesley Bell
Home Health Car Division
Connecticut Deparent of Health Serces
150 Washington  Strt
Harord CT 06106
(203) 5662575

DELAWARE - Parenta involvement
Ms. Paule Koch
Licensing Servces
Delawar Deparent of Servces
 for Childrn , Youths, and Famlies
Firt State Executive Plaz
330 Eat 30th Street
Wilmington, DE 19802
(302) 571- 6436
FLOItIDA - Fines
Ms. Pamela Hutchinson
Day Ca Licensing
Chdrn, Youth and Fames Prgr
Deparent of Health and Rehabiltative Servces
1317 Wmewoo Boulevard
Talahasse, FL 32399- 0700
(90) 488-4900

ILLINOIS - Legal sanctions andprours
Ms. Pat Bennett
Ofce of Chd Prtective Servces
Dlois Deparnt of Chidrn and Famy Serces
40 Eat Monr Strt
Sprigfeld, II 62701

(217) 785- 2688

INIAA - Parntal     involvement
Mr. Keith Caer
Day Ca Licensing Unit
Chd Welfare   Division
Indiana Deparent of Welfar   and Socal   Serces
141 South Meridian Strt
indiapolis, IN 46225

(317) 232-42

IOWA - Parnta involvement
Mr. Haold Poore
Chld Day Ca Servces
Iowa Deparent of Human Servces
Des Moines, IA 50319
(515) 281- 5521

MICHIGAN - Inspection review tehnques
Ms. Pat Van Dyke
Deparent of Social Servces
Division of Chd Day Ca Regulation
415 Frain SE
Grad Rapids, MI 49507
(616) 943- 3943
MISOTA - Inspetion review techniques
Ms. Jan Rudich
Day Car Licensing
Washington County   Governent Center
Community Social Servces
1490 61st Strt - Nort
 O. Box 30
Stiwater, MN 55082- 0030
(612) 779- 5050

NEBRASKA - Legal Sanctions and proedurs
Ms. Debbie Dawson
Ealy Chidhoo Licensing
Huma Servces Division
Nebra Deparnt of Socal Servces
  O. Box 95026
Lincoln , NE 68509- 5026
(402) 471- 3121

NEW HAMPHIR            - Legal sanctions and proedurs,
insption review tehnques, parnta involvement      and moneta incentives
Mr. Robert Leteller

Burau of Chid Ca Stada and Licensing
Division of Public Health Servces
New Hampshi Deparnt of Hum Servces
  Han Drve
Concord, NH 03301
(603) 271-4523

NEW JERSEY - Inspetion review tehniques
Mr. J. Patrck Byre
Division of Youth and Famy Servces
New Jersey Deparent of Huma Resoures
Trenton, NJ 08625
(60) 292- 1018

NEW YORK - Traig and tehncal assistace
Dr. Robert Page
Burau of Child
New York Deparent of Social Servces
40 Nort Pearl Street #11­
 Albany, NY 12243
 (518) 474-9324
 -;...
.-:




         NORtH DAKOTA -       Trag and tehnical assistace
         Mr. Paul Ronningen
         Early Childhoo Servces
         Chdrn and Famly Servces
         Nort Dakota Deparent of Huma Servces
         Judicial Wmg
         Bismarck, ND 58505
         (701) 224809



         Ms. Helen Danelson
         Early Chldhoo Trang Center
         State University Station
           O. Box 5057
         Fargo, ND 58105
         (701) 237- 8289

         PENNSYLVAN - Moneta incentives
         Mr. Chrtopher Wolf
         Burau of Chid Day Ca Servces
         Ofce of Chdrn, Youth & Fames
         Pennsylvania Deparent of Public Welfar
           O. Box 2675
         Hasburg, PA 17015
         (717) 787- 8691

         Trag and tehnical assistace
         Pennsylvana Deparent of Public Welfar
         Day Ca Servces
          Centr Region

          2330 Art  Boulevard
           O. Box 2675
          Hasburg, PA 17105
          (717) 657-463

          Insption review   techniques
          Mr. Richard Fiene
          c/o Burau of Child Day Car Seces
          Ofce of Childrn, Youth & Famlies
          Pennsylvania Deparent of Public Welfar
            O. Box 2675
          Hasburg, PA 17015
          (717) 787- 8691
TENNSSEE - Insption    review   tehniques
Ms. Caline Deal
Day Ca Licensing Servces
Tennessee Deparent of Human Servces
40 Deaderick Strt
Nashvie, TN 37219

(615) 741-7129

VERMONT - Parnta involvement, tring and tehnical assistace
Mr. Colema Baker
Division of Licensing and Regution
Vermont Deparent of Social and Rehabiltative Servces
103 South Man Strt
Waterur, VT 05676

(802) 241- 2158

WICONSIN - Insption review tehniques
Mr. David Edie
Burau for Chidrn, Youth & Famies
Wisconsin Deparent of Health and Social Servces
 O. Box 7851
Madson, WI 53707

(608) 2668200




                                    1"
